UNIVERSI'IY OF VIRGINIA SCHOOL OF LAW
UNIVU RSITY of

VIRGINIA
SCHOO L OF LAW

Directors

Supreme Court Litigation Clinic

Donald Burke
Joshua S.Johnson
M.atthew Madden

Jeremy C. Marwell

Daniel R. Ortiz

Mark T. Stancil

July 16,2020
Hon. Scott Harris
Clerk
The SupremeCourt of theUnited States
One First Street, NE
Washington, DC 20543

Re

J?efz/a#v. Va/z Dyke, No. 19-1272

Dear Mr. Harris
I am counsel of record for petitioner in the Refz/a#v. Va/zZ)yke, No. 19-1272. The cert
petition in the case is currently due to be distributed on July 22, 2020. Pursuant to this Court's
Order of March 19, 2020, petitioner requests that the distribution of the petition in the case be
delayed two weeks until August 5, 2020. The Covid lockdown of counsel's ofblce has slowed
progress, as has the instability under high neighborhood demand of his home internet connection
Respondent's counsel declines to object to this request.

Yours sincerely,

A-''- ©r

Daniel R. Ortiz
Cc: Marc J. Randazza, Esq

580 hlassie Road ' Chadottesville, VA 22903-1738 ' pRoM: 434.924.3127 ' rna434.982.2845 ' dortiz@law.vkgiiuiaedu ' www.law.virginia.edu

